i, Filed
Supreme Court of Guam , Clerk of Court

IN THE SUPREME COURT OF GUAM

SEDFREY M. LINSANGAN,
Petitioner-Appellant,
V.

GOVERNMENT OF GUAM, ARTHUR SAN AGUSTIN,
LOURDES LEON GUERRERO (Acting in their Official Capacity),
Respondents-Appellees.

Supreme Court Case No. CVA20-011
Superior Court Case No. SP0050-20

OPINION
Cite as: 2020 Guam 27
Appeal from the Superior Court of Guam
Argued and submitted on September 18, 2020
Via Zoom video conference

Appearing for Respondents-Appellees:
James L. Canto II, Esq.
Deputy Attorney General
Office of the Attorney General
590 S. Marine Corps Dr
Tamuning, GU 96913

Appearing for Petitioner-Appellant:
Braddock J. Huesman, Esq.
Fisher Huesman P.C.
Core Pacific Bldg.
545 Chalan San Antonio, Ste. 302
Tamuning, GU 96913

^-Received.
12/29J2Q20 2:29:16 PM.

2-1

Linsangan v. Gov't of Guam, 2020 Guam 27, Opinion

Page 2 of 22

BEFORE: F. PHILIP CARBULLIDO, Chief Justice; ROBERT J. TORRES, Associate Justice;
KATHERINE A. MARAMAN, Associate Justice.

PER CURIAM:
[1]

Petitioner-Appellant Sedfrey M. Linsangan appeals the Superior Court of Guam’s

dismissal and denial of his petition challenging the legality of actions taken by RespondentsAppellees Government of Guam, Arthur San Agustin, and Lourdes Leon Guerrero (I Maga ’hagan
Guahan) in their official capacities (collectively, “Government”) to control the spread of the 2019
novel coronavirus (COVID-19). In his petition, Linsangan sought (1) the release of quarantined
passengers who arrived from Manila, Philippines, on March 19, 2020, claiming they were subject
to invidious discrimination, and (2) an order revoking portions of Executive Order Nos. 2020-06
and 2020-07, which suspended sections of the Open Government Law (“OGL”). In a decision and
order later reduced to a judgment, the Superior Court granted the Government’s motion to dismiss
Linsangan’s petition, holding that Linsangan’s request for the release of quarantined Manila
passengers was moot and that his OGL claim was both moot and unripe. For the reasons below,
we affirm the judgment.
I. FACTUAL AND PROCEDURAL BACKGROUND
[2]

Because of the growing public health crisis related to the spread of COVID-19, I

Maga’hagan Guahan issued Executive Order No. 2020-03 declaring a state of public health
emergency under 10 GCA § 19401. In declaring a state of public health emergency, I Maga 'haga
authorized the Department of Public Health and Social Services (DPHSS), through its Director, to
exercise all emergency health powers enumerated in 10 GCA § 19401 etseq. Following the first
confirmed cases of COVID-19 in Guam, IMaga’haga issued a series of executive orders designed
to limit the spread of the vims.

Linsangan v. Gov’t of Guam, 2020 Guam 27, Opinion

[3]

Page 3 of 22

In Executive Order No. 2020-04,I Maga’haga ordered that, under 10 GCA § 3333:
[A]ll persons who are non-residents who have been in a country with confirmed
COVID-19 cases for more than one (1) week and do not possess a DPHSS
recognized and certified document that attests that they are not infected with
COVID-19, shall be restricted entry into Guam....
Any individual who enters into Guam without the proper documentation shall be
quarantined pursuant to [10 GCA § 3333] and [10 GCA §§ 19604 and 19605].

Record on Appeal (“RA”), tab 14 (Decl. James L. Canto II Supp. Mot. Dismiss (“Canto Decl.”),
Apr. 10, 2020), Ex. B at 2 (Exec. Order No. 2020-04, Mar. 16, 2020). I Maga’haga further
empowered DPHSS to issue guidance, subject to approval, to implement and enforce the order.
[4]

In Executive Order No. 2020-06,1 Maga ’haga temporarily suspended portions of the Open

Government Law, stating in part:
The application of Sections 8103, 8107, 8108, 8109, 8110, 8114, and 8115 of Title
5 of the Guam Code Annotated are temporarily suspended until April 13, 2020. To
ensure the public is well-informed in this time of emergency, public agencies shall
document their meetings in minutes and continue compliance with Section 8113.1,
Title 5 of the Guam Code Annotated. Actions taken at meetings of public agencies
without compliance with all provisions of the Open Government Law shall not be
effective until compliance with Section 8113.1, Title 5 of the Guam Code
Annotated.
RA, tab 14 (Canto Deck), Ex. C at 2 (Exec. Order No. 2020-06, Mar. 24, 2020). As justification,
I Maga 'haga stated, “while important functions of our government are executed by public agencies
in meetings that are open to the public, such publicly attended meetings would jeopardize our
efforts to slow the spread of COVID-19 throughout our island . .. .” Id. at 1.
[5]

In Executive Order No. 2020-07, / Maga ’haga lifted the suspension of meetings imposed

in Executive Order No. 2020-06 and directed that “any government agency, board or commission[]
is authorized to hold public meetings via teleconferencing and to make public meetings accessible
telephonically or otherwise electronically to all members of the public seeking to attend and to

Linsangan v. Gov't of Guam, 2020 Guam 27, Opinion

Page 4 of22

address the body.” RA, tab 14 (Canto Decl.), Ex. D at 2 (Exec. Order No. 2020-07, Mar. 28,
2020). I Maga’haga further directed:
[A]ny government entity or agency which holds a meeting for the purpose of
conducting public business shall provide public notice by submitting meeting
information for posting on the website of the Office of the Attorney General of
Guam....
[E]ach body must notice at least one telephonically or electronically accessible
location from which members of the public shall have the right to observe and offer
public comment at the public meeting ....
Id. at 3.
[6]

Under / Maga ’haga’s designation authorizing DPHSS to exercise all emergency health

powers, the DPHSS Director enacted a mandatoiy quarantine for all passengers arriving in Guam
from Manila, Philippines. In an action brought by DPHSS before the Superior Court requesting
the isolation or quarantine of passengers from the Philippines arriving on or about March 19,2020,
the Superior Court ordered the Government to release all passengers from quarantine after a
fourteen-day period if such persons tested negative for COVID-19, did not show symptoms
associated with COVID-19, or did not come into contact with someone who had tested positive
for COVID-19. See RA, tab 24 at 3 (Dec. & Order re Pet. & Mot. Dismiss, Apr. 20, 2020); see
also In re Travelers Arriving in Guam from Manila, Philippines, SP0049-20 (Order re Pets, for
Order Authorizing Cont’d Isolation or Quarantine, Apr. 1, 2020).

m

The DPHSS Director also issued Guidance Memo No. 2020-03 requiring quarantine at

government-designated facilities for all passengers entering Guam regardless of their place of
origin. In the memorandum, the Director stated:
The purpose of this Directive is to separate all individuals who are entering Guam.
Such individuals are reasonably suspected of having or being a carrier of SARSCoV2, the virus that causes COVID-19. COVID-19 is a disease dangerous to the
public health. Therefore, effective 12:00 AM, March 31,2020, all persons entering
Guam by air or sea shall be subject to a quarantine at a government-designated
facility for a period of fourteen (14) days from their date of entry.

Linsangan v. Gov't of Guam, 2020 Guam 27, Opinion

Page 5 of 22

RA, tab 14 (Canto Decl.), Ex. E (DPHSS Guidance Memo. 2020-03, Mar. 29, 2020).
[8]

In response to the Government’s actions, Linsangan filed an action titled “Petitioning the

Court to Issue Order to Release the Quarantined Residents from Manila Flight and Revoke
Executive Order [Nos.] 2020-06, 07 of Governor to Suspend People Rights on Meetings and
Sections [of OGL].” RA, tab 1 (Pet., Mar. 30, 2020). In the petition, Linsangan asked the trial
court to release quarantined passengers who arrived in Guam from Manila on March 19, 2020,
claiming “invidious discrimination” and alleging violations of numerous federal and local laws—
specifically, 48 U.S.C.A. § 1421(b), (n), (e), and (u) and § 1422, the first nineteen amendments to
the Constitution, and various provisions of the Islan Guahan Emergency Health Powers Act. RA,
tab 1 at 1-2, 4-6 (Pet.). Linsangan also requested that the court declare I Maga ’haga ’s actions of
suspending public participation in public meetings in Executive Order Nos. 2020-06 and 2020-07
to be inorganic and unconstitutional.
[9]

In response, the Government moved to dismiss under Rules 12(b)(1), 12(b)(2), 12(b)(4),

12(b)(5), and 12(b)(6) of the Guam Rules of Civil Procedure. Following a hearing, the trial court
granted the Government’s motion and dismissed Linsangan’s petition on jurisdictional grounds,
finding that Linsangan’s request regarding the release of quarantined passengers was moot and
that his claim of alleged violations of the OGL was both moot and unripe. The trial court thereafter
entered judgment for the Government on all claims asserted by Linsangan, and Linsangan timely
appealed.
II. JURISDICTION
[10]

The court has jurisdiction over appeals from a final judgment of the Superior Court. 48

U.S.C.A. § 1424-1(a)(2) (Westlaw through Pub. L. 116-223 (2020)); 7 GCA §§ 3107(b), 3108(a)
(2005).

Linsangan v. Gov't of Guam, 2020 Guam 27, Opinion

Page 6 of22

III. STANDARD OF REVIEW
[11]

We review questions of standing, mootness, and ripeness de novo. In re A.B. Won Pat Int 7

Airport Auth., Guam, 2019 Guam 6 f 14; Rapadas v. Benito, 2011 Guam 28 113; In re Moylan,
2018 Guam 15 f 6. A trial court’s decision to grant a motion to dismiss for lack of subject matter
jurisdiction is also reviewed de novo. See Amerault v. Intelcom Support Servs., Inc., 2004 Guam
23^19.
IV. ANALYSIS
[12]

This appeal concerns the justiciability doctrines of standing, mootness, and ripeness, as

they relate to Linsangan’s ability to challenge the Government’s actions in response to the COVID19 pandemic. Because the trial court dismissed Linsangan’s petition on jurisdictional grounds, the
legality of the quarantine measures ordered in Executive Order No. 2020-04 (and subsequent
DPHSS directives) or the suspension of sections of the OGL in Executive Order Nos. 2020-06 and
2020-07 are not before this court. As such, we take no position as to whether I Maga ’haga ’s
actions in those orders were illegal or proper exercises of executive power in the context of a public
health emergency.
[13]

On appeal, Linsangan argues that his claim relative to the release of quarantined passengers

was improperly dismissed as moot because the Government had exceeded (and continues to
exceed) its spending authority by quarantining arriving passengers. See Appellant’s Br. at 5-7
(June 18, 2020). He alleges taxpayer standing under 5 GCA § 7103 for the first time on appeal,
arguing the statute “gives taxpayers the right to challenge illegal actions involving an expenditure
of tax dollars by giving standing to a plaintiff where otherwise there would be none.” Id. at 7; see
also 5 GCA § 7103 (2005). He further argues that his claim relative to a violation of the OGL was
improperly dismissed as unripe despite there being “obvious possible facts that could exist to state

Page 7 of22

Linsangan v. Gov't of Guam, 2020 Guam 27, Opinion

a claim under Guam’s notice pleading standard.” Appellant’s Br. at 9.

We address these

arguments in turn.
A. Linsangan’s Claim Relative to the Release of Quarantined Passengers1
1. Linsangan does not have constitutional standing to assert his invidious
discrimination claim
[14]

In his petition, Linsangan sought the release of quarantined passengers who arrived in

Guam from Manila on March 19, 2020, claiming invidious discrimination and alleging violations
of numerous federal and local laws—namely, 48 U.S.C.A. § 1421(b), (n), (e), and (u) and § 1422
of the Organic Act of Guam, the first nineteen amendments to the Constitution, and various
provisions of the Islan Guahan Emergency Health Powers Act.

In essence, he claimed the

Government was engaging in invidious discrimination by improperly quarantining passengers
arriving from Manila at government-designated quarantine facilities while similarly situated
passengers arriving from other countries were exempt from the same requirements. As the
Government argues, however, Linsangan lacks constitutional standing to assert this specific claim.
See Appellees’ Br. at 16 (July 20, 2020).
[15]

“Traditional standing requirements” expressed in Article III of the U.S. Constitution apply

to all claims asserted in Guam’s courts; such requirements are jurisdictional in nature and cannot

1 As a preliminary matter, we recognize that both the trial court and Linsangan confuse the issues of standing
and mootness. For example, in the order dismissing Linsangan’s claim, the trial court cited to jurisprudence regarding
standing, and then stated, “the Court finds the question of [Linsangan’s] standing moot.” RA, tab 24 at 9 (Dec. &
Order re Pet. & Mot. Dismiss, Apr. 20, 2020). The trial court then proceeded to analyze why Linsangan’s claim
regarding the release of quarantined passengers was moot without discussing how its finding of mootness either related
to standing or deprived Linsangan of standing. Id. Linsangan also makes the confusing argument that, because he
purportedly has taxpayer standing, “the Superior Court had a duty to allow ... Linsangan discovery to determine the
extent of the illegal expenditures. As such, the case was not moot, and it was error to dismiss it.” Appellant’s Br. at
8 (June 18, 2020). Such confusion is understandable given that mootness has been described as “the doctrine of
standing set in a time frame: The requisite personal interest that must exist at the commencement of the litigation
(standing) must continue throughout its existence (mootness).” Friends of the Earth, Inc. v. Laidlaw Env’t Servs.
(TOC), Inc., 528 U.S. 167, 189 (2000) (quoting Arizonans for Off. Eng. v. Arizona, 520 U.S. 43, 68 n.22 (1997)).
Because the issues of standing and mootness are two distinct but related justiciability doctrines, we address the issue
of Linsangan’s standing to bring forth his invidious discrimination claim before turning to whether the claim was
properly dismissed as moot.

Linsangan v. Gov't of Guam, 2020 Guam 27, Opinion

Page 8 of 22

be waived. In re A.B. Won Pat Int’l, 2019 Guam 6 H 16. “If a party does not have standing to
bring a claim, a court has no subject matter jurisdiction to hear the claim.” United Pac. Islanders ’
Corp. v. Cyfred, Ltd., 2017 Guam 6^15 (quoting Taitano v. Lujan, 2005 Guam 26 f 15). To
satisfy the “irreducible constitutional minimum of standing,” a plaintiff must: (1) have suffered an
injury in fact, (2) demonstrate a causal connection between the injury and the complained-of
conduct, and (3) show that a favorable decision by the court will likely redress the injury.
Benavente v. Taitano, 2006 Guam 15 f 15 (quoting Lujan v. Defs. of Wildlife, 504 U.S. 555, 56061 (1992)). As to the first element, “[a]n injury in fact must be concrete, particularized, and actual
or imminent; it cannot be purely conjectural or hypothetical.” Guam Mem’l Hosp. Auth. v.
Superior Court, 2012 Guam 17 f 12. In other words, “[a] plaintiff must always have suffered ‘a
distinct and palpable injury to himself,’ that is likely to be redressed if the requested relief is
granted.” In re A.B. Won Patlnt’l, 2019 Guam 6 fj 20 (quoting Gladstone, Realtors v. Village of
Bellwood, 441 U.S. 91, 100 (1979)).
[16]

With respect to his claim seeking the release of quarantined passengers who were

purportedly subject to invidious discrimination, Linsangan concedes on appeal that he lacks
constitutional standing.

Appellant’s Br. at 9 (“Linsangan complains that the Government’s

requirement that only Manila passengers be quarantined ... is invidious discrimination^] .. . but
he is not the person to bring the claim as he was not on a flight from Manila and was not forced
into quarantine.”). Linsangan further concedes that because “he did not suffer the discrimination,
and the record is absent of allegations that the individuals who did face the discrimination are
hindered from bringing their own claims, [he] has no standing to assert a civil rights claim on [the
quarantined passengers’] behalf.” Id. at 11.

Linsangan v. Gov’t of Guam, 2020 Guam 27, Opinion

[17]

Page 9 of22

Separate from Linsangan’s concession that he lacks constitutional standing for his claim of

invidious discrimination, our examination of the petition shows that the allegations raised by
Linsangan point neither to a distinct and palpable injury to him nor to an actual or imminent threat
of injury. Rather, Linsangan raises only a general grievance over the Government’s methods in
quarantining passengers arriving from Manila. See RA, tab 1 at 2-3 (Pet.). Because Linsangan
has suffered no distinct and palpable injury to himself and does not allege such injury in his
petition, he does not have constitutional standing for his claim of invidious discrimination.
2, Linsangan’s alternative theory of taxpayer standing was not properly invoked
below, and we decline to review such arguments on appeal
[18]

As Linsangan admittedly has not suffered a distinct and palpable injury to himself to

advance his claim of invidious discrimination, he now attempts on appeal to characterize the claim
as a taxpayer lawsuit under 5 GCA § 7103. See Appellant’s Br. at 11, 17. Linsangan argues that
“Guam law gives taxpayers the right to challenge illegal actions involving an expenditure of tax
dollars by giving standing to a plaintiff where otherwise there would be none.” Id. at 7. He alleges
that because he has taxpayer standing under 5 GCA § 7103, “the Superior Court had a duty to
allow [him] discovery to determine the extent of the illegal expenditures.” Id. at 8. In response,
the Government argues this court should not consider Linsangan’s arguments on taxpayer standing
because Linsangan never articulated or properly invoked taxpayer standing in any of the
proceedings or pleadings below. Appellees’ Br. at 30. We agree. Because Linsangan never
alleged or invoked taxpayer standing before the trial court as an alternative basis for his invidious
discrimination claim, we decline to address this issue on appeal.
[19]

Linsangan’s petition is entitled “Petitioning the Court to Issue Order to Release the

Quarantined Residents from Manila Flight and Revoke Executive Order [Nos.] 2020-06, 07 of
Governor to Suspend People Rights on Meetings and Sections [of OGL].” RA, tab 1 at 1 (Pet.).

Linsangan v. Gov't of Guam, 2020 Guam 27, Opinion

Page 10 of 22

The first sentence reads: “The actions taken by the Governor and Public Health to quarantine
residents from [the] Manila flight on March 19, 2020 constitutes [sic] invidious discrimination.”
Id. at 1-2 (emphasis omitted). In our review of the petition, the factual basis for Linsangan’s claim
regarding the release of quarantined passengers was not about supposed illegal expenditures, but
about his concern that the quarantine measures imposed by the Government regarding passengers
arriving from Manila were discriminatory. See id. at 3 (alleging that Government “single[s] out
Manila passengers when there[] [is] only 2 cases in March 15 that come from Manila and now
only 7 out of 53 cases as of March 29, 2020” and that “passenger[s] from Manila flight [were]
discriminated [against]”); id. at 6 (asking court “to release the quarantined people and let them
self[-]quarantine in their homes”).
[20]

The only expressed references to potential improper government spending are two

instances in which Linsangan implies that the funds spent to quarantine passengers arriving from
Manila may have exceeded statutory limits. First, Linsangan alleges, without articulating any
supporting facts, a violation of section 19803(c)(2) of the Islan Guahan Emergency Health Powers
Act, which places a ceiling on the amount the Government can spend without legislative
appropriation upon declaration of a public health emergency. See RA, tab 1 at 5 (Pet.); 10 GCA
§ 19803(c)(2) (2005). Second, in an addendum to the petition, Linsangan alleges the cost spent to
quarantine individuals “is a waste of local funds, exceeded the authority by the officials, [and]
disregarded and violated Legislative authority on appropriation.” RA, tab 1 at 7 (Pet.).
[21]

While these two assertions may imply that government expenditures related to the

quarantine of passengers may have exceeded statutory limits, they do not form a sufficient basis
for a taxpayer standing action because Linsangan fails to allege sufficient facts linking such
assertions with any illegal spending. Because of this deficiency, these two assertions amount to

Linsangan v. Gov't of Guam, 2020 Guam 27, Opinion

Page 11 of 22

mere speculation as to how the Government was funding its efforts to quarantine passengers and
whether such funding might be better spent on other methods to control the spread of COVID-19.
See RA, tab 6 at 3 (Statement of Standing Jurisdiction, Mar. 31, 2020) (“I am concerned with the
spending of our [pjublic [officials on [quarantined residents. Based on my estimate, for 200
people we are spending 40,000.00 to 60,000.00 a day which is unnecessary. ... This money
should be used to buy protective gear and testing kits.”).
[22]

Moreover, Linsangan did not request in his petition the return of government funds that

may have been inappropriately spent, which is the purpose of taxpayer standing actions under 5
GCA § 7103. See 5 GCA § 7103. Linsangan’s failure to seek return of government funds reveals
the true nature of the petition—to secure the release of passengers Linsangan believed were subject
to invidious discrimination. And even if Linsangan meant to plead a taxpayer standing action,
Linsangan never raised in the proceedings below that the trial court was incorrectly reviewing the
petition through the prism of an invidious discrimination claim when he was purportedly asserting
a taxpayer standing action, as he now argues on appeal.
[23]

By presenting his invidious discrimination claim under a new legal theory not properly

invoked before or addressed by the trial court, Linsangan waived his arguments on taxpayer
standing. In order for this court to consider the claim, we would need to exercise our discretion to
hear matters raised for the first time on appeal. See In re A.B. Won Pat Int’l, 2019 Guam 6

15

(finding newly raised theory of standing waived but exercising discretion); see also, e.g.,Pluet v.
Frasier, 355 F.3d 381, 385 n.2 (5th Cir. 2004) (finding that new legal theory on appeal regarding
prudential standing was waived); Huron v. Cobert, 809 F.3d 1274,1280 (D.C. Cir. 2016) (finding
new theories of standing raised for first time on appeal were waived). “[A]s a matter of general
practice, ‘this court will not address an argument raised for the first time on appeal.’” Tanaguchi-

Linsangan v. Gov't of Guam, 2020 Guam 27, Opinion

Page 12 of 22

Ruth + Assocs. v. MDI Guam Corp., 2005 Guam 7 H 78 (quoting Univ. of Guam v. Guam Civ.
Serv. Comm ’n, 2002 Guam 4 ^ 20); see also Hemlani v. Hemlani, 2015 Guam 16 f 34 (“[B]ecause
the trial court has not actually addressed this issue ..., we are reluctant to address it in the first
instance on appeal.”).
[24]

And while standing is a “threshold jurisdictional matter,” the lack of which “may be raised

at any stage of the proceedings, including for the first time on appeal,” we have expressed caution
in addressing novel issues about standing when used as a “backdoor for waived arguments.” Cho
v. Fujita Kanko Guam, Inc., 2009 Guam 21 ^ 36 (citations omitted); see also Adarand
Constructors, Inc. v. Mineta, 534 U.S. 103, 109-110 (2001) (per curiam) (declining to consider
plaintiffs belated arguments and evidence regarding standing that had “never been presented to
any lower court”); Huron, 809 F.3d at 1280 (holding that appellate discretion to address new
arguments raised on appeal applies to standing); Common Cause ofPa. v. Pennsylvania, 558 F.3d
249, 263 (3d Cir. 2009) (“A litigant generally cannot create standing through new allegations
asserted for the first time on appeal.”); Pluet, 355 F.3d at 384-85 & n.2 (refusing to “disturb the
district court’s judgment” based on plaintiffs new standing argument because it was “an entirely
new legal theoiy raised for the first time on appeal”); In re Hen House Interstate, Inc., 177 F.3d
719, 724 (8th Cir. 1999) (declining to consider alternative statutory basis for standing raised for
first time on appeal). We reserve our discretion to review waived arguments for extraordinary
circumstances including: “(1) when review is necessary to prevent a miscarriage of justice or to
preserve the integrity of the judicial process; (2) when a change in law raises a new issue while an
appeal is pending; and (3) when the issue is purely one of law.” Tanaguchi-Ruth, 2005 Guam 7
HU 80, 82 (quoting Dumaliang, 2000 Guam 24112 n.l).

Linsangan v. Gov’t of Guam, 2020 Guam 27, Opinion

[25]

Page 13 of 22

In his pleadings, however, Linsangan fails to articulate why we should exercise our

discretion to hear new arguments on standing never presented below. His only argument is a single
sentence that acknowledges our discretion to hear new arguments raised for the first time on
appeal. See Appellant’s Br. at 2. Permitting Linsangan’s appeal based on taxpayer standing,
without it being invoked and considered below and absent any articulated reason by Linsangan for
the exercise of our discretion, would present a procedural quandary on appeal for three reasons.
[26]

First, Linsangan’s invidious discrimination claim was dismissed by the trial court on

mootness grounds, not on standing. Therefore, the issue on appeal is whether the trial court
improperly dismissed Linsangan’s invidious discrimination claim as moot.
[27]

Second, because Linsangan invokes taxpayer standing for the first time on appeal, the trial

court did not address his arguments in the first instance, and “it is not the province of an appellate
court to ‘hypothesize or speculate about the existence of an injury [Linsangan] did not assert’ to
the [trial] court.” Huron, 809 F.3d at 1280 (quotingKawa Orthodontics, LLPv. Sec’y, U.S. Dep’t
of the Treasury>, 773 F.3d 243,246 (11th Cir. 2014)). As the Government argues, the detriment of
exercising our discretion to consider novel issues of standing is “even more significant here, as
Linsangan’s newly purported Taxpayer Statute claim is mentioned only in passing (if at all) in his
pleadings, and its determination would entangle [the] court beyond its appellate function.”
Appellees’ Br. at 42. We agree. Determining whether Linsangan had taxpayer standing and then
remanding the matter would deprive the trial court of its function in making first-instance
determinations of disputed legal or factual issues. See Bivins v. State ex rel. Okla. Mem 7 Hosp.,
917 P.2d 456, 464 (Okla. 1996) (holding that trial court’s function in every case is to make firstinstance determinations of disputed law or fact issues).

Limangan v. Gov't of Guam, 2020 Guam 27, Opinion

[28]

Page 14 of 22

Third, as the trial court did not address taxpayer standing, there is no record on which the

court can rely to appropriately review the issue. This is because Linsangan’s arguments on appeal
regarding taxpayer standing are far more extensive than the mere inferences to this theory in the
petition such that they represent a new legal theory never considered below. And critical to the
considerations of fairness in the review of issues raised for the first time on appeal is the existence
of a complete and factually developed trial court record.

See Guam Election Comm’n v.

Responsible Choices for all Adults Coal, 2007 Guam 20 f 99 (“This court has discretion to hear
arguments raised for the first time on appeal ‘when the issue presented is purely one of law and
either does not depend on the factual record developed below, or the pertinent record has been
fully developed.”’ (quotingBolkerv. Comm’r, 760 F.2d 1039, 1042 (9th Cir. 1985))); QuanXing
He v. Gov’t of Guam, 2009 Guam 20 If 54 (“Because the record is insufficient to resolve these
issues for the first time on appeal, we express no opinion as to these matters.”); San Union, Inc. v.
Arnold, 2017 Guam 10119 (“Although most of the arguments raised for the first time on appeal
are questions of law, they are matters on which the court would benefit from a fuller record.”).
Without a factually developed trial court record, we would be resorting to speculation and
conjecture over the basis for Linsangan’s taxpayer standing arguments; thus, we decline to address
Linsangan’s new arguments on taxpayer standing and proceed to review the trial court’s finding
of mootness.
3. The trial court properly dismissed Linsangan’s claim of invidious discrimination
as moot
[29]

Linsangan argues the trial court’s finding of mootness was erroneous because “the Superior

Court had a duty to allow [him] discovery to determine the extent of the illegal expenditures [for

Linsangan v. Gov 't of Guam, 2020 Guam 27, Opinion

Page 15 of 22

his taxpayer standing claim]. As such, the case was not moot, and it was error to dismiss it.”2
Appellant’s Br. at 8.

In response, the Government argues that Linsangan’s initial claim of

invidious discrimination was properly dismissed as moot because the passengers he was seeking
to release “were released prior to the adjudication of the issue by the trial court.” Appellees’ Br.
at 17. We agree.
[30]

Mootness is a threshold jurisdictional issue under the well-settled concept that “[cjourts

may not give opinions upon moot questions or abstract propositions.” Town House Dep’t Stores,
Inc. v. Ahn, 2000 Guam 32 ^[9; see also Rapadas, 2011 Guam 28 f 16 (explaining mootness
doctrine). “A claim becomes moot only when the issues are no longer live or the parties lack a
legally cognizable interest in the outcome.” Town House, 2000 Guam 32 f 9 (quoting United
States v. Ripinsky, 20 F.3d 359, 362 (9th Cir. 1994)).

“[intervening events or changed

circumstances that make it impossible for a reviewing court to grant the complaining party
effectual relief will render a case moot.” Rapadas, 2011 Guam 28 f 16. A court, however, may
still reach the merits of a mooted appeal if the appeal is “capable of repetition yet evading
review.” People v. Bias, 2016 Guam 19 f 17 (quoting Spencer v. Kemna, 523 U.S. 1, 17 (1998)).
The “capable of repetition yet evading review” exception to mootness is applicable when “(1) the
duration of the challenged action is too short to be fully litigated; and (2) there is a reasonable
expectation that the same complaining party will be subject to the same action again.” Basil Food
Indus. Servs. Corp. v. Territory of Guam, 2019 Guam 29 f 12.
[31]

In his initial petition, Linsangan requested the release of individuals quarantined after

arriving from Manila on March 19, 2020. Our review of the record indicates that, besides those

2 Linsangan’s new arguments on taxpayer standing impose several procedural hurdles with respect to our
disposition of whether his initial claim of invidious discrimination was properly dismissed as moot. See Part IV. A.2.
Thus, we address only the mootness of Linsangan’s initial claim of invidious discrimination as originally decided by
the trial court.

Linsangan v. Gov 'I of Guam, 2020 Guam 27, Opinion

Page 16 of 22

individuals who had tested positive for COVID-19 or had come into contact with persons who had
tested positive for COVID-19, any individuals quarantined after arriving in Guam from the
Philippines on March 19, 2020, were released.3 As the Government rightfully points out, “[t]his
effectively ended the controversy raised by Linsangan” as to his claim of invidious discrimination.
Appellees’ Br. at 18.
[32]

Given that “[m]ootness can arise at any stage of litigation,” including on appeal, the

question over the release of passengers is also moot before this court because “the issues involved
in the trial court no longer exist” as “intervening events . .. [have] rendered] it impossible for the
... court to grant the complaining party effectual relief.” Rapadas, 2011 Guam 28 If 16 (alterations
in original); see also Tumon Partners, LLC v. Shin, 2008 Guam 15 f 37 (“It is a well-settled general
rule that the existence of an actual controversy is an essential requisite to appellate jurisdiction . .
. .” (quoting Sullivan v. McDonald, 913 A.2d 403, 405 (Conn. 2007))). Specifically, the claim is
moot because (1) Executive Order No. 2020-04, which prompted Linsangan’s invidious
discrimination claim, has been replaced and updated numerous times since he filed his underlying
petition; and (2) on the day before Linsangan filed his petition, the Director of DPHSS issued
Guidance Memo No. 2020-03 requiring quarantine at government-designated facilities for all
persons entering Guam, regardless of their place of origin. See RA, tab 14 (Canto Decl.), Ex. E
(DPHSS Guidance Memo. 2020-03).

Therefore, the trial court properly determined that

Linsangan’s initial claim of invidious discrimination was moot, and the matter has been further
mooted on appeal by actions of the Government requiring quarantine of all persons entering Guam
regardless of their place of origin.

3 In dismissing the matter as moot, the trial court took judicial notice of facts and findings in various petitions
that were heard before the trial court judge regarding the quarantine of passengers arriving from Manila. See RA, tab
24 at 2 (Dec. & Order re Pet. & Mot. Dismiss); see also In re Travelers Arriving in Guam from Manila, Philippines,
SP0049-20 (Order re Pets, for Order Authorizing Cont’d Isolation or Quarantine, Apr. 1, 2020).

Page 17 of 22

Linsangan v. Gov't of Guam, 2020 Guam 27, Opinion
[33]

Even if Linsangan’s invidious discrimination claims were not moot, perhaps because the

quarantine of individuals is “capable of repetition yet evading review,” Linsangan still admittedly
lacks constitutional standing to bring forth his invidious discrimination claim. And “if a plaintiff
lacks standing at the time the action commences, the fact that the dispute is capable of repetition
yet evading review will not entitle the complainant to a... judicial forum.” Friends of the Earth,
Inc. v. LaidlawEnv’t Sen’s. (TOC), Inc., 528 U.S. 167,191 (2000).
4. Under the circumstances, the trial court was not required to sna sponte allow
Linsangan to amend his complaint
[34]

Separate from his jurisdictional arguments, Linsangan argues that because he was initially

a pro se litigant, the trial court “had a duty to allow [him] to replead and not dismiss the [petition]
in its entirety.” Appellant’s Br. at 22. He also extends this same argument to his OGL violation
claim. See Appellant’s Reply Br. at 8 (July 30, 2020). While courts should “afford considerable
leeway toward pro se litigants,” see Ji v. Toves, 2020 Guam 2 f 13, we have never held there to be
a “duty” that requires a trial court to always provide a pro se litigant an opportunity to replead his
case before dismissal. Rather, we give deference to a pro se party’s litigation efforts. Allen v.
Richardson, 2020 Guam 13 f 8; Ji, 2020 Guam 2

13; San Union, 2017 Guam 10 f 34; McGhee

v. McGhee, 2008 Guam 17 f 11. “We also ‘provide lenient treatment’ of those efforts and give
the parties ‘every fair opportunity to present their case[s].” Allen, 2020 Guam 13 f 8 (alteration in
original) (citation omitted). However, “[t]he leniency accorded [to] pro se litigants cannot extend
to depriving their opponent of due process.” Ji, 2020 Guam 2 ^ 13 (second alteration in original)
(quoting Beck & Panico Builders, Inc. v. Straitman, C.A. No. 08A-08-014 PLA, 2009 WL
5177160, at *5 (Del. Super. Ct. Nov. 23, 2009)).
[35]

Because of the deference and leniency a tribunal should afford a pro se litigant, Linsangan

seems to argue the trial court was required to sua sponte grant him leave to amend his petition and

Linsangan v. Gov't of Guam, 2020 Guam 27, Opinion

Page 18 of 22

correct any defects before dismissal. Though we acknowledge the “rule favoring liberality in
amendments to pleadings is particularly important for the pro se litigant,” Id. (quoting Lopez v.
Smith, 203 F.3d 1122,1131 (9th Cir. 2000)), Linsangan never requested leave to amend his petition
to properly raise taxpayer standing as a basis for jurisdiction. Without requesting leave to amend,
it was not improper for the trial court to dismiss Linsangan’s claim of invidious discrimination,
considering that, in reviewing the Government’s motion to dismiss, the trial court was
contemplating its very power to hear the matter. When the trial court determined it lacked
jurisdiction to address Linsangan’s petition, dismissal was not only proper given the
circumstances, but required under the Guam Rules of Civil Procedure. See Guam R. Civ. P.
12(h)(3) (“Whenever it appears by suggestion of the parties or otherwise that the court lacks
jurisdiction of the subject matter, the court shall dismiss the action.”).
[36]

When reading Linsangan’s petition with the deference given to a pro se litigant, it is clear

that it involved what he characterized as “invidious discrimination,” an issue he now admits he has
no standing to litigate.4 See Appellant’s Br. at 9. His argument on appeal that he “properly pled
that the Governor illegally spent money,” thereby invoking jurisdiction under 5 GCA § 7103,
contradicts both the pleadings below and Linsangan’s request that we exercise our discretion in
considering his new legal theory of taxpayer standing for the first time on appeal. Id. at 21-22.

4 Linsangan also seems to suggest that, considering his initial status as a pro se litigant, the trial court was
required to ascertain for itself that his subtle references to allegedly illegal government expenditures were meant to
assert a taxpayer action under 5 GCA § 7103. See Appellant’s Br. at 21-22. While a pro se litigant is owed deference,
the trial court should not be seen as an advocate for a pro se litigant and should not read causes of action into a
complaint or petition that were not properly asserted. See Caspino v. Caspino, DCA Civ. No. 87-00065A, S.C.
Domestic No. 1445-86, 1988 WL 242619, at *2 (D. Guam App. Div. June 7, 1988) (“Courts should not act as
advocates for pro se litigants, but should provide lenient treatment of their efforts.”). In our reading of die petition, it
is clear that Linsangan meant to invoke a claim of invidious discrimination, as opposed to a taxpayer action. Thus,
we do not believe the trial court improperly failed to address the issue of taxpayer standing or had any duty under the
circumstances to make further inquiries into Linsangan’s references to illegal government spending, even as a pro se
litigant.

r—■

Linsangan v. Gov ’I of Guam, 2020 Guam 27, Opinion

[37]
•»

Page 19 of 22

While the trial court was not required under the circumstances to allow Linsangan to amend

1

his petition, he is not deprived from “repleading” his action, as he argues, because the trial court
did not dismiss Linsangan’s petition with prejudice. Should Linsangan believe a cause of action
exists regarding what he describes as “illegal expenditures on quarantines,” he may plead a new
action invoking taxpayer standing under 5 GCA § 7103 as a potential basis for jurisdiction.
B. Linsangan’s OGL Claim was Properly Dismissed on Ripeness Groundss
[38]

In his petition, Linsangan alleged as follows regarding his OGL claim: “I am also

petitioning that the executive order by the Governor to suspend people[’s] right to attend
government meeting[s] and hearing[s] be revoked, cancelled and declare[d] null and void. The
Governor is in conflict and violation of Section 1422 of [the] Organic Act, Bill of Rights, and
Constitutional rights.” RA, tab 1 at 6 (Pet.). In its analysis, the trial court determined that
Linsangan’s claim regarding violation of the OGL “lacks ripeness because he does not allege any
past or imminent meeting where public access and participation was inhibited.” RA, tab 24 at 12
(Dec. & Order re Pet. & Mot. Dismiss). We agree.6

5 Because the trial court did not make an express finding as to standing regarding the OGL claim, only
assuming standing to reach the issues of mootness and ripeness, we decline to address Linsangan’s arguments on
appeal that he enjoys automatic standing to challenge violations of the OGL. See Appellant’s Br. at 7.
6 Though we agree with the trial court’s findings, we feel it necessary to address Linsangan’s framing of the
issue on appeal. In his brief; Linsangan argues that because Guam follows the “no set of facts’’ notice standard for
pleading, the trial court erred when it required more than notice pleading in initially dismissing his matter as unripe.
Appellant’s Br. at 3, 9. He alleges that during the hearing below on the Government’s motion to dismiss, the trial
court improperly asked if Linsangan had any knowledge of any violations of the OGL during the four days that the
laws were suspended, to which he purportedly answered no. Id. at 9. Because a trial court may consider matters
outside the pleadings in construing a motion to dismiss for lack of jurisdiction, the trial court’s consideration of
Linsangan’s undisputed oral admissions was not improper. See Mortensen v. First Fed. Sav. & Loan Ass549 F.2d
884, 891 (3d Cir. 1977) (“Because at issue in a factual 12(b)(1) motion is the trial court’s jurisdiction]—jits very
power to hear the case]—jthere is substantial authority that the trial court is free to weigh the evidence and satisfy
itself as to the existence of its power to hear the case.”); Osborn v. United States, 918 F.2d724,728 n.4 (8th Cir. 1990)
(stating that court may look to evidence outside pleadings when deciding motion to dismiss under Rule 12(b)(1)).
Additionally, we find no relevance to Linsangan’s arguments relative to the pleading standard because the trial court
clearly granted the Government’s motion to dismiss on jurisdictional grounds, not under Rule 12(b)(6). See RA, tab
24 at 12 (Dec. & Order re Pet. & Mot. Dismiss). Therefore, we apply ripeness principles under de novo review.

Linsangan v. Gov't of Guam, 2020 Guam 27, Opinion

[39]

Page 20 of 22

“Ripeness is a prudential doctrine which seeks to ‘prevent^ courts from entangling

themselves in “abstract disagreements.’”” In re Moylan, 2018 Guam 1517 (alteration in original)
(quoting People v. Gay, 2007 Guam 1118). While “[t]he standing question is whether the plaintiff
has alleged such a personal stake in the outcome of the controversy as to warrant his invocation of
. .. jurisdiction^] [t]he ripeness question is whether the harm asserted has matured sufficiently to
warrant judicial intervention. Both questions bear close affinity to one another.” Immigrant
Assistance Project ofL.A. Cnty. Fed’n ofLabor (AFL-CIO) v. I.N.S., 306 F.3d 842, 859 (9th Cir.
2002) (citations omitted and internal quotation marks omitted).
[40]

In determining whether a matter is ripe for review, a court considers two factors: “(1)

whether the issues are fit for judicial consideration and (2) the hardship to the parties if
consideration is withheld.” In re Moylan, 2018 Guam 15 17. Regarding the first factor, “[a]
question or claim is fit for judicial consideration when ‘the issues raised are primarily legal, do not
require further factual development, and the challenged action is final.’” Gay, 2007 Guam 1118
(quoting Verizon Cal. Inc. v. Peevey, 413 F.3d 1069, 1075 (9th Cir. 2005) (Bea, J., concurring)).
Conversely, “[a]n issue is not ‘fit’ for judicial review when it involves ‘contingent future events
that may not occur as anticipated, or indeed may not occur at all.’” Id. (alteration in original)
(quoting United States v. Dibiase, 687 F. Supp. 38,42 (D. Conn. 1988)); Thomas v. Union Carbide
Agric. Prods. Co., 473 U.S. 568, 580-81 (1985). Because the “[ijnquiry into ‘ripeness asks
whether the facts have developed sufficiently so that an injuiy has occurred or is likely to occur,
rather than being contingent or remote,”’ an injury that is speculative or contingent is unripe. In
re Moylan, 2018 Guam 1517 (quoting Patterson v. Planned Parenthood ofHous. & Se. Tex., Inc.,
971 S.W.2d 439,442 (Tex. 1998)); see also Gay, 2007 Guam 1118 (describing ripeness doctrine).

r

Linsangan v. Gov't of Guam, 2020 Guam 27, Opinion

[41]

Page 21 of 22

Here, the trial court specifically determined that Linsangan’s OGL violation was unripe

“because he does not allege any past or imminent meeting where public access and participation
was inhibited.” RA, tab 24 at 12 (Dec. & Order re Pet. & Mot. Dismiss). This finding was proper
because Linsangan’s petition is devoid of: (1) any reference to a specific violation of the OGL
after I Maga’haga temporarily suspended certain provisions of the OGL in Executive Order No.
2020-06, or (2) any reference to any past or imminent meeting where public access and
participation in public meetings were prohibited. Rather, Linsangan’s allegations in the petition
were speculative and amount to a general grievance as to the legality of I Maga ’haga’s actions in
suspending provisions of the OGL, not to any specific violation.
[42]

Linsangan’s arguments as to the ripeness of his OGL claim lend further credence to the

speculative nature of the claim. For example, Linsangan argues that, had the trial court not
dismissed the matter, he could have pursued discovery to ascertain whether any meetings were
held in violation of the OGL. Appellant’s Br. 7. He further states he should have been allowed to
amend his complaint as a pro se litigant to “do additional research.” Reply Br. at 8. These
arguments demonstrate that the facts have not been developed to the degree necessary to establish
that an injury—in this case, an OGL violation—has occurred or is likely to occur. And as the
Government points out, Linsangan makes no allegation (even on appeal) that any public meetings
were held in violation of the OGL, let alone that Linsangan himself had attempted or hoped to
attend such a public meeting. See Gay, 2007 Guam 11 ^ 8 (“[A]n issue is not ‘fit’ for judicial
review when it involves ‘contingent future events that may not occur as anticipated, or indeed may
not occur at all.’” (quoting Dibiase, 687 F. Supp. at 42)). Because any violation of the OGL was
contingent on the Government actually holding public meetings during the time the OGL was
suspended, the matter was not ripe for judicial review. Nonetheless, Linsangan is not prevented

V
Page 22 of 22

Linsangan v. Gov't of Guam, 2020 Guam 27, Opinion
f ■

from filing a new action below should he discover any specific violations to the OGL resulting
from the measures taken by I Maga 'haga in Executive Order No. 2020-06.7
V. CONCLUSION
[43]

Because the trial court properly dismissed Linsangan’s invidious discrimination claim as

moot and his claim regarding violation of the Open Government Law as unripe, we AFFIRM the
judgment of the Superior Court.

/s/
ROBERT J. TORRES
Associate Justice

/s/
KATHERINE A. MARAMAN
Associate Justice

/s/
F. PHILIP CARBULLIDO
Chief Justice

7 As we find that Linsangan’s OGL claim was properly dismissed as unripe, we find it unnecessary to review
the trial court’s determination as to the mootness of the claim.
i

»X

A
FILED

superior am?
Of SUAH

2828 APR 20 AH 9: ’43
CLERK 0F G6URT
IN THE SUPERIOR COURT OF GUAMBv'.

a

7

Superior Court Case No. SP0050-20

Sedfrey M. Linsangan,
Petitioner,
vs.
Government of Guam, Linda DeNorcey,
Lourdes Leon Guerrero (Acting in their
Official Capacity),

DECISION AND ORDER
RE PETITION AND MOTION TO
DISMISS

Respondents.
In this proceeding, the Court addresses Sedfrey M. Linsangan’s Petition to the Court to
release quarantined residents arriving from Manila and to revoke the portions of Executive Order
Nos. 2020-06 and 2020-07 which suspend the Open Government Law. The Court also reviews
Respondents’ Motion to Dismiss. The Court determines: (1) Linsangan has properly served the
Office of the Attorney General; (2) Linsangan has not properly served the Governor of Guam,
Lourdes Leon Guerrero, or Linda DeNorcey, but may cure the improper service; (3) the issue of
releasing quarantined residents arriving from Manila is moot; and (4) any Open Government
Law violation claims are unripe.

The Court therefore GRANTS Respondents’ Motion to

Dismiss and DENIES Linsangan’s Petition.
I.

FACTUAL BACKGROUND
Linsangan challenges actions taken by the Governor and the Director of the Department

of Public Health and Social Services (DPHSS) as part of their response to the COVID-19
pandemic. Linsangan first objects to the Governor’s quarantine of travellers arriving from the

Ta {?lr *f£**M5 ^ ^

SP0050-20

DECISION AND ORDER RE PETITION AND MOTION TO DISMISS

Page 2

Philippines. In Executive Order No. 2020-04, the Governor ordered that “all persons who are
non-residents who have been in a country with confirmed COVID-19 cases for more than one (1)
week and do not possess a DPHSS recognized and certified document that attests that they are
not infected with COVID-19, shall be restricted entry into Guam” and quarantined. The Court
takes judicial notice of facts it recently found in In re Travelers Arriving in Guam from Manila,
Philippines, on or about March 19, 2020, SP0049-20:
5. Restricting entry into Guam was necessary to reduce the number of potential
sources of COVID-19 on Guam and to allow DPHSS sufficient time to
investigate the sources of the confirmed COVID-19 cases.
6. DPHSS determined that a significant number of confirmed COVID-19 cases
were linked to travel from the Philippines.
7. ...the number of confirmed cases [in] the Philippines increased twenty-fold
within the ten days prior to March 19, 2020.
***

14. ... On March 23, 2020, the Governor’s Physicians’ Advisory Group stated
that if Guam maintains its current spread rate, Guam’s healthcare system for
critically ill COVID-19 patients will soon be overwhelmed.
15. Under her authority under 10 GCA § 10108 and Executive Order No.
2020-03, on March 19 and 20, 2020, DPHSS’ Director enacted a mandatory
quarantine at a government facility for all persons arriving on Guam who had
traveled' from the Philippines.
***

25. Guam does not have the resources to monitor all potentially COVED-19
infected individuals if it sends travellers home to self-quarantine instead of
quarantining them at a government facility. Releasing persons arriving from a
COVID-19 “hot spot” such as the Philippines will require DPHSS to do frequent
monitoring of hundreds of individuals-resources DPHSS does not currently
possess.

1 Linsangan’s Petition concerns quarantined “residents;” this mirrors the language of the scope of the quarantine
authorized in Executive Order No. 2020-04. It appears, however, that the Government quarantined both residents
and non-residents arriving from the Philippines.

SP0050-20

DECISION AND ORDER RE PETITION AND MOTION TO DISMISS

Page 3

Id. (Order re Pets, for Order Authorizing Continued Isolation or Quarantine, Apr. 1,2020). After
making such findings, the Court ordered that the Government release all persons from quarantine
after a 14 day period if such persons tested negative for COVID-19, did not show symptoms
associated with COVID-19, and did not come into contact with someone who has tested positive
for COVID-19. Id.
The Court also takes judicial notice of lawsuits challenging the quarantine for travellers
arriving on March 20, 21, 22, and 23, 2020, from the Philippines or with recent travel to the
Philippines, and the Court’s similar order allowing for such persons’ release after 14 days if they
tested negative, did not show symptoms associated with COVXD-10, and did not come into
contact with someone who tested positive for COVD-19.

See SP0051-20; SP0052-20;

SP0053-20; and SP0054-20.
On March 29, 2020, DPHSS’ Director issued DPHSS Guidance Memo No. 2020-03
which required that effective March 31, 2020, all persons entering Guam by air or sea shall be
subject to quarantine at a government-designated facility for a period of 14 days from the date of
entry. Decl. James L. Canto II, Ex. E (Apr. 10, 2020). This Directive effectively extended the
quarantine to all arriving passengers regardless of origin.
Linsangan also challenges Executive Order No. 2020-06, which suspended portions of
the Open Government Law-specifically, 5 GCA §§ 8103, 8107-8110, 8114, and 8115. Public
agencies, however, were required to document their meetings in minutes. Executive Order No.
2020-06 | 5.

Four days later, the Governor issued Executive Order No. 2020-07, which

authorized public bodies to hold public meetings via teleconference and to make such meetings
accessible telephonically or electronically to all members of the public. Public bodies were also

SP0050-20

DECISION AND ORDER RE PETITION AND MOTION TO DISMISS

Page 4

required to submit meeting information for posting on the Attorney General’s website in advance
of the meeting. Executive Order No. 2020-07 f 4.
II.

PROCEDURAL BACKGROUND
On the same day Linsangan filed his Petition, the Court issued an Order requiring him to

serve the Petition and a Summons on Respondents and to provide proof of such service. Order
(Mar. 30, 2020). The next day, Linsagan filed a Summons and a “Proof of Service Justification.”
The Justification stated that Linsangan “made his worker deliver the Summons and Petition” to
the Office of the Attorney General, but it was closed. Linsangan represents that he then emailed
the documents to Shannon Taitano, Deputy Attorney General. Proof Serv. Justification (Mar. 31,
2020).

The Court determined that Linsangan’s Summons was defective because it failed to
notify Respondents of the time within which they must appear and defend. Order (Apr. 1,2020).
The Court ordered Linsagan to amend the Summons and re-serve Respondents. Order (Apr. 1,
2020). The next day, Linsangan filed a Proof of Service which indicated: “Summons was
delivered to the Governors office signed by the Police Officer along with the Complaint. Linda
DeNorcey inform her Secretary or front office not to accept the Summons and Complaint,
Instead bring it to AG’s office. I emailed the Amended Summons to Deputy A.G. Shannon
Taitano since nobody in their office and no answer in the phone.” Proof of Serv. (Apr. 2,2020).
The (second) Proof of Service included a copy of a Summons which directed Respondents to
respond to the Petition within five days. The attached Summons appears to have a signature of
receipt by a police officer.

SP0050-20

DECISION AND ORDER RE PETITION AND MOTION TO DISMISS

Page5

On April 3, 2020, recognizing the urgency of the issues presented, the Court issued an
Order for Briefing allowing Respondents five days to respond to the Petition. Order for Briefing
(Apr. 3,2020). Respondents timely filed a Motion to Dismiss.
in.

LAW AND DISCUSSION
A. Method of Service of Summons
The Government challenges the method of service and the contents of the Amended

Summons.

Under Guam Rule of Civil Procedure 4(i), service may be effected on the

Government of Guam and its officers by delivering a copy of a summons and complaint to the
Attorney General or to an assistant attorney general or by sending a copy by registered or
certified mail to the Office of the Attorney General, and also by sending the summons and
complaint by registered or certified mail to the officer. In other words, to complete service,
Linsangan must have served flie Attorney General personally or by mail and file individual
Respondents by mail.
The Court first reviews whether Linsangan properly served the Attorney General. The
Attorney General claims that to its knowledge, it has not received a hand-delivered copy of the
Petition and Summons nor a certified or registered mailing of the same. Decl. James L. Canto II
at % 7. However, as Linsangan indicates, the Office of the Attorney General has closed its offices
during the public emergency. At the hearing on this Motion, the Attorney General represented
that its administrative offices have remained open, but also conceded that the public may be
informed otherwise. According to the Attorney General’s website, “Service of process will be
available only by email to each respective division.” http://oagguam.org/ (originally visited on
March 31,2020; last visited April 18,2020) (emphasis in original). The site then links to general
email accounts such as “civillitigation@oagguam.org” and “administration@oagguam.org.” Jd.

SP0050-20

DECISION AND ORDER RE PETITION AND MOTION TO DISMISS

Page 6

Linsangan was unaware that he could email such addresses, but did email his Petition and
Amended Summons to Shannon Taitano, the Deputy Attorney General. Linsangan informed the
Court at the hearing that he works with Taitano in unrelated litigation and that Taitano did not
respond to his email. Though Linsangan did not know of the Attorney General’s website’s
advisory, there is no reason to prevent him from using serve by email as the website directs.
The Court also takes judicial notice of Supreme Court of Guam Administrative Order No.
ADM20-210 which states that during the Court’s closure due to COVID-19, “parties shall serve
documents through electronic means or by email, except for those limited instances in which
personal service is required.” Notably, in Rule 4(i)(l), personal service is not required to serve
the Attorney General. Instead, a litigant may either deliver a copy of a summons and complaint
to the Attorney General or may send the Summons and Complaint by mail. Because personal
service was not required, by the language of ADM20-210, Linsangan could utilize electronic
means to serve the Attorney General.
Under the circumstances, the Court finds that Linsangan has effectuated service on the
Attorney General by emailing the documents to Taitano, who qualifies under Rule 4(i)(l) as an
“assistant attorney general.” Personal service was not possible because the Attorney General’s
offices are closed as expressed on its website. As further advised on the website, in lieu of
personal service, the Attorney General accepted service of documents by email. Also, service by
mail was impractical given the closure of the Attorney General’s office. Moreover, the Guam
Supreme Court permitted service by electronic means.

For these reasons, service on the

Attorney General has been accomplished.
As for the Governor and DeNorcey, Rule 4(i)(2) required Linsangan to serve the Attorney
General and “also send[] a copy of the summons and complaint by registered or certified mail to

SP0050-20

DECISION AND ORDER RE PETITION AND MOTION TO DISMISS

the officer.”

Page 7

To afford due process, there must be strict compliance with service

requirements-even for pro se litigants. Albra v. Advan, Inc., 490 F.3d 826, 829 (lift Cir. 2007).
Actual notice does not excuse improper service. Id.; Mid-Continent Wood Prods., Inc. v. Harris,
936 F.2d 297, 301 (7th Cir. 1991). Linsangan has not mailed the Governor or DeNorcey a copy
of the Petition and Summons as Rule 4(i) requires. This means that this Court lacks jurisdiction
over the individual Respondents until they properly receive service of process. Direct Mail
Specialists v. Eclat Computerized Techs., Inc., 840 F.2d 685, 688 (9th Cir. 1988).
The Rules of Civil Procedure do offer a cure for defective service. Rule 4(i)(3) provides
a party a “reasonable time to serve process under Rule 4(i) for the purpose of curing the failure to
serve ... all persons required to be served in an action governed by Rule 4(i)(2)(A), if the
plaintiff has served the Attorney General of Guam.” This provision “saves the plaintiff from the
hazard of losing a substantive right because of failure to comply with the complex requirements
of multiple service under” Rule 4(i). Fed. R. Civ. P. 4 advisory committee note (1993).
Nonetheless, as a later discussion shows, the Court GRANTS the Motion to Dismiss on other
grounds, which makes proper service on the individual Respondents moot.
B. Adequacy of SummonsRespondents complain that Linsangan’s Amended Summons stated the incorrect number
of days they had to respond to the Petition. Linsangan advised Respondents that they had five
days to respond; Rule 12, however, gives the government 60 days.
This is a meritless defense. As it concerns the contents of a summons, Rule 4 is a flexible
rule that should be liberally construed so long as a party receives sufficient notice of the

2 Linsangan complains that the Court does not have a form Summons. A sample Summons is attached as Form No.
1 to the Guam Rules of Civil Procedure. http://www.guamcourts.org/CompilerofLaws/CourtRules/
GRCP%2020140729.pdf.

SP0050-20

DECISION AND ORDER RE PETITION AND MOTION TO DISMISS

Page 8

complaint. United Food & Commercial Workers Union, Locals 197, 373, 428, 588, 775, 839,
870, 1119, 1179 & 1532, by United Food & Commercial Workers Int'l Union, AFL-CIOv. Alpha
Beta Co., 736 F.2d 1371, 1382 (9th Cir. 1984) (when summons states the incorrect time to
answer, dismissal is generally not justified absent a showing of prejudice). The Government has
not shown that it is prejudiced by Linsangan’s incorrectly stated Amended Summons.
C. Standing. Mootness. & Ripeness
Linsangan asserts he has automatic standing under the United States Constitution’s First
Amendment “Right to Petition.” The First Amendment states that “Congress shall make no law
... [abridging] the right of the people ... to petition the Government for a redress of grievances.”
U.S. Const, amend. I. Guam's Organic Act Bill of Rights contains a nearly identical provision:
“[n]o law shall be enacted in Guam ... [abridging] the right of the people ... to petition the
government for a redress of their grievances.” 48 U.S.C. § 1421b(a). Due to their similarity, the
Guam Supreme Court interprets the Organic Act’s right to petition “in the same manner as the
United States Supreme Court has interpreted the same right.” Guam Greyhound, Inc. v. Brizill,
2008 Guam 13 f 16.
The right to petition includes the right of access to the courts. Cal. Motor Transp. Co. v.
Trucking Unlimited, 404 U.S. 508, 510 (1972). However, access-to-courts rights do not exist in
an “abstract, freestanding” form. Lewis v. Casey, 518 U.S. 343, 351 (1996). “[T]hey are
tethered to principles of Article III standing.” Blaisdell v. Frappiea, 729 F,3d 1237, 1244 (9th
Cir. 2013). The doctrine of standing “prevents courts of law from undertaking tasks assigned to
the political branches.” Lewis, 518 U.S. at 349. “It is the role of courts to provide relief to
claimants, in individual or class actions, who have suffered, or will imminently suffer, actual

SP0050-20

DECISION AND ORDER RE PETITION AND MOTION TO DISMISS

Page 9

harm; it is not the role of courts, but that of the political branches, to shape the institutions of
government in such fashion as to comply with the laws and the Constitution. Id.
Linsangan therefore does not enjoy automatic standing due to his “Right to Petition.”
Instead, he must possess either statutory standing or common-law standing before enjoying
access to the courts. Benavente v. Taitano, 2006 Guam 15 ff 20-21. A court looks to die
language of the relevant statute to determine whether a party has statutory standing. Id. Absent
statutory standing, a plaintiff must satisfy “the irreducible constitutional minimum of standing”
under Article in of the U.S. Constitution: (1) have suffered an injury-in-fact, (2) demonstrate a
causal connection between the injury and the complained-of conduct, and (3) show that a
favorable decision by the court will likely redress the injury. Id. f 14. A plaintiff must
demonstrate standing for each and every claim pursued. Davis v. Federal Elec. Comm ’n, 554
U.S. 724,734 (2008).
For Linsangan’s first request for relief, the Court finds the question of his standing moot.
Courts may not give opinions upon moot questions or abstract propositions. Town House Dep’t
Stores, Inc. v. Ahn, 2000 Guam 32 f 9. “A claim becomes moot only when the issues are no
longer live or the parties lack a legally cognizable interest in the outcome.” Id. (quoting United
States v. Ripinsky, 20 F.3d 359, 361 (9th Cir.1994)). It is when “intervening events... have
rendered it impossible for the reviewing court to grant the complaining party effectual relief.”
Rapadas v. Benito, 2011 Guam 28 f 16 (quotations omitted). Mootness can arise at any stage of
litigation. See Calderon v. Moore, 518 U.S. 149,150 (1996) (citations omitted). Linsangan asks
the Court to release individuals who were quarantined after flying in from Manila. Unless they
have tested positive for COVID-19 or have come into contact with persons who have tested
positive for COVID-19, any individuals who were quarantined after arriving on Guam from

SP0050-20

DECISION AND ORDER RE PETITION AND MOTION TO DISMISS

Page 10

Manila have since been released, and therefore the Court cannot grant Linsangan effectual relief
as to his first claim.
For his second request, Linsangan petitions the Court to revoke the section of Executive
Order No. 2020-06 suspending sections 8103, 8107-8110, 8114, 8115 of Title 5 of the Guam
Code Annotated, Guam’s Open Government Law, as unconstitutional. Executive Order No.
2020-06 f 5. Interestingly, section 8115 confers Linsangan with statutory standing: “Any person
shall have standing to sue for the enforcement of this Chapter.” 5 GCA § 8115(a).
Suspending a statutorily conferred right to petition is solely within the power of the
Legislature: “the Legislature has complete power to determine the rights of individuals. It may
create new rights or provide that rights which have previously existed shall no longer arise.”
Guam Greyhound, Inc. v. Brizill, 2008 Guam 13 f 18.
Though the Governor may “through an executive order suspend, the provisions of any
regulatory statute prescribing procedures for conducting local business, or the orders, rules and
regulations of any government of Guam agency, to the extent that strict compliance with the
same would prevent, hinder or delay necessary action (including emergency purchases) by the
public health authority to respond to the public health emergency, or increase the health threat to
the population”, the Governor’s emergency powers do not expressly give her the right to suspend
statutes conferring standing. 10 GCA § 19403. Moreover, the Government does not explain
how strictly complying with a statute granting standing hinders the public health authority’s
response to a public health emergency.
Assuming therefore that Linsangan has standing for his second claim, the Court now
addresses its viability. During the hearing, Linsangan argued that the Governor exceeded her

SP0050-20

DECISION AND ORDER RE PETITION AND MOTION TO DISMISS

Page II

emergency powers by suspending the Open Government Law, and that she violated the Open
Government Law by disallowing public attendance and participation at government meetings.
The Governor’s emergency powers allow her to suspend the regulations of any
government of Guam agency “to the extent that strict compliance with the same would prevent,
hinder or delay necessary action... by the public health authority to respond to the public health
emergency, or increase the health threat to the population.” 10 GCA § 19403. As she stated,
“while important functions of our government are executed by public agencies in meetings that
are open to the public, such publicly attended meetings would jeopardize our efforts to slow the
spread of COVID-19 throughout our island . . . .” Executive Order No. 2020-06 at 1. She
effectively mandated that the public could not attend or participate at government meetings due
to the increased possibility that COVID-19 could spread more easily and rapidly. Four days after
releasing Executive Order No. 2020-06, she released Executive Order No. 2020-07, which
ensured public attendance and participation at government board and commission meetings by
authorizing teleconferencing and making meetings telephonically or otherwise electronically
accessible to all members of the public. Even if the Governor initially exceeded her emergency
powers with Executive Order 2020-06, Executive Order No. 2020-07 moots the issue because
the public can now attend and participate in meetings, albeit by electronic means.
Linsagan also does not allege a meeting occurred in violation of the Open Government
Law during the four days between Executive Orders. He stated during the hearing that he has
not attempted to attend a meeting and that he does not know if a meeting occurred in violation of
the Open Government Law. When an injury is speculative or contingent, a claim is unripe.
People of Guam v. Gay, 2007 Guam 11 If 8; see also Matter of Guardianship ofMoylan, 2018
Guam 15 Tf 7 (finding that ripeness asks whether the facts have developed sufficiently so that an

SP0050-20

DECISION AND ORDER RE PETITION AND MOTION TO DISMISS

Page 12

injury bas occurred or is likely to occur, rather than being contingent or remote). Until
Linsangan can demonstrate an Open Government Law violation during those four days between
Executive Orders, his claim lacks ripeness because he does not allege any past or imminent
meeting where public access and participation was inhibited.
IV.

CONCLIJ8TON
The Court GRANTS Respondents’ Motion to Dismiss as Linsangan’s request for release

of the passengers is moot and his claim that the Open Government Law was violated is unripe.
The Court also finds that Linsangan did not properly serve the individual Respondents.
Linsangan’s Petition is therefore DENIED.
SO ORDERED this 19th day of April 2020.

• V

V'

"V

Lk

H0N.ELYZEM. IRIARTE
Judge, Superior Court of Guam
•*r* *

Appearing Parties:
Sedfrey M. Linsangan, pro se
Assistant Attorney General James L. Canto, H, Office of the Attorney General, for Respondents

Additional material
from this filing is
available in the
Clerk's Office.

